No. 20-126
IN THE

Supreme Court of the United States
ANDALUSIAN GLOBAL DESIGNATED ACTIVITY COMPANY, ET AL.,
Petitioners,
v.
FINANCIAL OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, ET AL.,
Respondents.

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,461
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 8, 2020.

/s/ Ian Heath Gershengorn
Ian Heath Gershengorn

